No. _______

IN THE
SUPREME COURT OF THE UNITED STATES
___________
JORGE MADRID-URIARTE,
Petitioner
v.
UNITED STATES OF AMERICA
Respondent
___________
APPENDIX
___________

INDEX TO APPENDICES
Appendix A

Judgment and Opinion of Fifth Circuit

Appendix B

Judgment and Sentence of the United States District Court for the Northern
District of Texas

APPENDIX A

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 19-10370
Summary Calendar

United States Court of Appeals
Fifth Circuit

FILED
February 27, 2020

UNITED STATES OF AMERICA,
Plaintiff-Appellee

Lyle W. Cayce
Clerk

v.
JORGE MADRID-URIARTE,
Defendant-Appellant
Appeals from the United States District Court
for the Northern District of Texas
USDC No. 4:18-CR-200-1
Before CLEMENT, ELROD, and OLDHAM, Circuit Judges.
PER CURIAM: *
Jorge Madrid-Uriarte appeals the above-guidelines sentence of 71
months of imprisonment imposed following his guilty plea conviction for illegal
reentry into the United States after removal. He contends the district court
improperly considered his unadjudicated arrests at the sentencing hearing.
According to Madrid-Uriarte, when the district court stated that it had
tentatively decided to overrule his objections to the presentence report (PSR)

Pursuant to 5TH CIR. R. 47.5, the court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth in 5TH
CIR. R. 47.5.4.
*

No. 19-10370
“for the reasons argued by the Government in response to the defendant’s
objections,” the district court concluded that his unadjudicated arrests
constituted “credible information that [Madrid-Uriarte] has engaged in other
criminal activity.” He maintains that he preserved this issue for appellate
review because he stated in his objections to the PSR that the court should
consider his “convictions rather than underlying criminal conduct.”
Claims of procedural error at sentencing are ordinarily reviewed de novo,
United States v. Harris, 702 F.3d 226, 229 (5th Cir. 2012), but plain error
review applies if the error was not preserved in the district court, United States
v. Williams, 620 F.3d 483, 493 (5th Cir. 2010). “To preserve error, an objection
must be sufficiently specific to alert the district court to the nature of the
alleged error and to provide an opportunity for correction.” United States v.
Wooley, 740 F.3d 359, 367 (5th Cir. 2014) (internal quotation marks and
citation omitted). Madrid-Uriarte’s arguments in the district court did not
alert the district court to consider the specific argument he is raising on appeal
and did not provide the court the opportunity to clarify whether it had
considered Madrid-Uriarte’s arrest record in determining the appropriate
sentence. Therefore, review is limited to plain error. See id. To establish plain
error, he must show a forfeited error that is clear and obvious and that affected
his substantial rights. See Puckett v. United States, 556 U.S. 129, 135 (2009).
If he makes such a showing, we have the discretion to correct the error but
should do so only if it “seriously affects the fairness, integrity, or public
reputation of judicial proceedings.” Id. (internal quotation marks, brackets,
and citation omitted).
Although the district court stated that it was tentatively overruling
Madrid-Uriarte’s objections for the reasons given by the Government in its
response to his objections at the beginning of the sentencing hearing, the court

2

No. 19-10370
did not expressly state that it had considered Madrid-Uriarte’s arrest record.
After considering the parties’ arguments and Madrid-Uriarte’s allocution, the
district court gave the following extensive reasons for the sentence imposed.
Madrid-Uriarte’s criminal history category substantially underrepresented the
seriousness of his criminal history and the likelihood that he would commit
other crimes.

He had a lengthy criminal history, beginning in 2001 and

continuing until his arrest for this offense. In addition, Madrid-Uriarte had
been removed to Mexico on seven prior occasions. His prior sentences and his
prior removals did not deter him from returning to the United States illegally
and committing further crimes. The court adopted the PSR, and its statements
at sentencing reflect that it relied on the PSR’s statements concerning factors
that might warrant an upward departure or variance. In view of the entire
record, the district court’s statements at the sentencing hearing do not
establish that it improperly considered Madrid-Uriarte’s arrest record. To the
extent that the district court’s statements could be construed as ambiguous
because it adopted the Government’s response, any error was not of the clear
or obvious type required by the plain error standard. See United States v.
Ibarra-Zelaya, 465 F.3d 596, 607 (5th Cir. 2006) (“Because the error, if there
was error, is based on an ambiguous statement, there can be no relief under
the plain error standard.”).
AFFIRMED.

3

APPENDIX B

Case 4:18-cr-00200-Y Document 38 Filed 03/29/19

Page 1 of 3 PageID 121

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
Fort Worth Division

UNITED STATES OF AMERICA

JUDGMENT IN A CRIMINAL CASE

v.

Case Number: 4:18-CR-200-Y(1)
M. Levi Thomas, assistant U.S. attorney
William Hermesmeyer, attorney for the defendant

JORGE MADRID-URIARTE

On November 20, 2018, the defendant, Jorge Madrid-Uriarte, entered a plea of guilty to count one of the onecount indictment. Accordingly, the defendant is adjudged guilty of such count, which involves the following offense:
TITLE & SECTION

NATURE OF OFFENSE

OFFENSE CONCLUDED

COUNT

8 U.S.C. § 1326(a) and
(b)(1)

Illegal Reentry After Deportation

September 16, 2017

1

The defendant is sentenced as provided in pages two through three of this judgment. The sentence is imposed
under Title 18, United States Code § 3553(a), taking the guidelines issued by the United States Sentencing
Commission under Title 28, United States Code § 994(a)(1), as advisory only.
The defendant shall pay immediately a special assessment of $100.00 for count one of the one-count
indictment.
The defendant shall notify the United States attorney for this district within thirty days of any change of
name, residence, or mailing address until all fines, restitution, costs, and special assessments imposed by this judgment
are fully paid.
Sentence imposed March 28, 2019.

_______________________________
TERRY R. MEANS
UNITED STATES DISTRICT JUDGE
Signed March 29, 2019.

Case 4:18-cr-00200-Y Document 38 Filed 03/29/19

Page 2 of 3 PageID 122

Judgment in a Criminal Case
Defendant: Jorge Madrid-Uriarte
Case Number: 4:18-CR-200-Y(1)

Judgment -- Page 2 of 3

IMPRISONMENT
The defendant, Jorge Madrid-Uriarte, is hereby committed to the custody of the Federal Bureau of Prisons to be
imprisoned for a term of 71 months on count one of the one-count indictment. This sentence shall run consecutively
to any sentence imposed in the defendant's pending post-release community supervision revocation in Case No.
XEAKA10684401, Los Angeles County Superior Court, Los Angeles, CA, but concurrently with the sentence
imposed in Case No. CR20119 in the 271st Judicial District Court, Wise County, Texas.
The defendant is remanded to the custody of the United States marshal.

SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall be placed on supervised release for a term of 3 years
on count one of the one-count indictment. The Court imposed a term of supervised release because it will provide an
added measure of deterrence and protection based on the facts and circumstances of this case.
Pursuant to 18 U.S.C. §3583(d), as a condition of supervised release upon the completion of the sentence of
imprisonment, the defendant shall be surrendered by the Federal Bureau of Prisons to a duly authorized immigration
official for deportation in accordance with the established procedures provided by the Immigration and Nationality
Act, 8 U.S.C. §§1101 et seq. As a condition of supervised release, if ordered deported, the defendant shall remain
outside the United States.
If the defendant is not deported immediately upon release from imprisonment, or should the defendant ever
be within the United States during any portion of the term of supervised release, in compliance with the standard
conditions of supervision adopted by the United States Sentencing Commission the defendant shall:
( 1)
( 2)
( 3)
( 4)
( 5)
( 6)
( 7)

( 8)
( 9)
(10)
(11)
(12)
(13)

not leave the judicial district without the permission of the Court or probation officer;
report to the probation officer in a manner and frequency directed by the Court or probation officer;
answer truthfully all inquiries by the probation officer and follow the instructions of the probation
officer;
support the defendant's dependents and meet other family responsibilities;
work regularly at a lawful occupation unless excused by the probation officer for schooling, training,
or other acceptable reasons;
notify the probation officer within seventy-two (72) hours of any change in residence or
employment;
refrain from excessive use of alcohol and not purchase, possess, use, distribute, or administer any
narcotic or other controlled substance, or any paraphernalia related to such substances, except as
prescribed by a physician;
not frequent places where controlled substances are illegally sold, used, distributed, or administered;
not associate with any persons engaged in criminal activity and not associate with any person
convicted of a felony unless granted permission to do so by the probation officer;
permit a probation officer to visit the defendant at any time at home or elsewhere and permit
confiscation of any contraband observed in plain view by the probation officer;
notify the probation officer within seventy-two (72) hours of being arrested or questioned by a law
enforcement officer;
not enter into any agreement to act as an informer or a special agent of a law enforcement agency
without the permission of the Court; and
notify third parties of risks that may be occasioned by the defendant's criminal record or personal
history or characteristics, and permit the probation officer to make such notifications and to confirm
the defendant's compliance with such notification requirement, as directed by the probation officer.

In addition the defendant shall:

Case 4:18-cr-00200-Y Document 38 Filed 03/29/19

Page 3 of 3 PageID 123

Judgment in a Criminal Case
Defendant: Jorge Madrid-Uriarte
Case Number: 4:18-CR-200-Y(1)

Judgment -- Page 3 of 3

not commit another federal, state, or local crime;
not possess illegal controlled substances;
not possess a firearm, destructive device, or other dangerous weapon;
cooperate in the collection of DNA as directed by the probation officer;
report in person to the probation office in the district to which the defendant is released from the
custody of the Federal Bureau of Prisons, or in which the defendant makes entry into the United
States, within 72 hours of release or entry;
not illegally reenter the United States if deported, removed, or allowed voluntary departure; and
refrain from any unlawful use of a controlled substance. The defendant shall submit to one drug test
within 15 days of release from imprisonment and at least two periodic drug tests thereafter, as
directed by the probation officer.

FINE/RESTITUTION
The Court does not order a fine or costs of incarceration because the defendant does not have the financial
resources or future earning capacity to pay a fine or costs of incarceration.
Restitution is not ordered because there is no victim other than society at large.

RETURN
I have executed this judgment as follows:

Defendant delivered on ___________________________ to ____________________________________
at ____________________________________________________________, with a certified copy of this judgment.

United States marshal

BY ________________________________
deputy marshal

